No. 19I N THE

$>upreme <!ourt of tlJe Wlniteb $>tates
C ELGEN E C ORPORATI ON,

Petitioner,

V.

LAURA A. P ET ER, D EP UTY U N DER SECRETARY
OF COMM ERCE FO R I NT ELLECTUAL PROPERTY
AND D E P UTY DIH ECTOR OF TH E U.S.
P ATENT AN D TRA DEM ARK OFFI CE ,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rul e 33. l(h), 1 hereby certify that the Petition
for a Writ of Certiorari in Celgene Corporation v. Peter, No. 19-__ , complies with
the word limitations, as it contains 8,996 word s.
I declare under penalty of perjury that the fore going is true and correct.

Date: February 26, 2020

~Stander

